TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Control Weaknesses Could Allow
                        Taxpayers’ Delinquent Accounts to
                          Be Inappropriately Closed As
                            Currently Not Collectible



                                      September 17, 2012

                              Reference Number: 2012-40-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                HIGHLIGHTS


CONTROL WEAKNESSES COULD                            collectible. The total assessed balance for the
ALLOW TAXPAYERS’ DELINQUENT                         17 cases was almost $289,000, and the total
ACCOUNTS TO BE INAPPROPRIATELY                      assessed balance for the 136 taxpayer
CLOSED AS CURRENTLY NOT                             accounts was approximately $2.5 million.
COLLECTIBLE                                         Of the 17 cases reviewed, four (24 percent)
                                                    cases did not include the required financial
                                                    statements, four (24 percent) cases had closing
Highlights                                          codes that were higher than warranted based
                                                    on the taxpayers’ financial statements, nine
Final Report issued on                              (53 percent) cases did not have the required tax
September 17, 2012                                  liens, and 16 (94 percent) cases were closed
                                                    without documentation of a manager’s approval
Highlights of Reference Number: 2012-40-108         on the Accounts Management Services System.
to the Internal Revenue Service Commissioner        Of the 136 taxpayer accounts reviewed,
for the Wage and Investment Division.               13 (10 percent) had closing codes that were
IMPACT ON TAXPAYERS                                 lower than warranted based on case
                                                    documentation, and 28 (21 percent) had closing
Some taxpayers try to resolve their delinquent      codes that were higher than warranted.
account by working with an assistor at one of the
IRS’s walk-in offices called Taxpayer Assistance    WHAT TIGTA RECOMMENDED
Centers. If the taxpayer has no ability to pay,     TIGTA recommended that the IRS: 1) ensure
the taxpayer account could be closed as             assistors follow established procedures,
currently not collectible. When taxpayer            2) clarify internal guidelines requiring
accounts are closed inappropriately as currently    management approval of cases in the Accounts
not collectible, taxpayers may be burdened and      Management Services System history section,
the IRS may not be able to collect taxes owed       3) conduct a risk analysis to determine the risk
when a taxpayer’s income increases.                 of not segregating duties, and 4) implement
WHY TIGTA DID THE AUDIT                             security reviews and reports that can be used to
                                                    evaluate the assistors’ use of system command
This audit was initiated because of a referral      codes.
from the TIGTA Office of Investigations.
Delinquent taxpayer accounts were closed as         The IRS agreed with the recommendations. It
currently not collectible without IRS managerial    plans to remind assistors of their responsibility to
approval and without detection. The objective of    adequately document cases and follow internal
the audit was to determine whether controls over    procedures, clarify guidelines requiring
balance due accounts closed as currently not        managerial documentation of currently not
collectible in the Field Assistance Office are      collectible cases on the Account Management
sufficient to ensure all actions are appropriate.   Services System, and complete an analysis to
                                                    assess the risks associated with the
WHAT TIGTA FOUND                                    non-segregation of duties in Taxpayer
                                                    Assistance Centers where staffing levels do not
An analysis of a judgmental sample of 17 cases      permit proper segregation. The IRS agreed with
and a statistically valid sample of 136 taxpayer    the need for security reviews and believes this
accounts closed in the Taxpayer Assistance          can be done through reviews of monthly usage
Centers as currently not collectible identified     reports provided by the Integrated Data
that the accounts were not worked according to      Retrieval System’s online reports services and
procedures. Because cases lacked                    plans to reemphasize to managers the
documentation, such as financial statements         importance of following the security review
and case history notes, it could not be             guidelines.
determined whether the correct decision was
made to close the cases as currently not
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed As Currently Not
                             Collectible (Audit # 201240006)

 This report presents the results of our review to determine whether controls over balance due
 accounts closed as currently not collectible in the Field Assistance Office are sufficient to ensure
 all actions are appropriate. This audit was conducted as a result of a Treasury Inspector General
 for Tax Administration Office of Investigations referral that identified material control
 weaknesses that allow Internal Revenue Service assistors to place balance due taxpayer accounts
 in currently not collectible status without obtaining proper managerial approval. This audit is
 included in our Fiscal Year 2012 Annual Audit Plan and addresses the major management
 challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                                   Control Weaknesses Could Allow Taxpayers’
                                 Delinquent Accounts to Be Inappropriately Closed
                                           As Currently Not Collectible




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Controls Over Currently Not Collectible Accounts
          Do Not Ensure All Actions Taken Are Appropriate ..................................... Page 3
                    Recommendations 1 through 4:......................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Controls and Tolerances Concerning
          Currently Not Collectible Accounts.............................................................. Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 18
         Control Weaknesses Could Allow Taxpayers’
       Delinquent Accounts to Be Inappropriately Closed
                 As Currently Not Collectible




                Abbreviations

AMS       Accounts Management Services
IDRS      Integrated Data Retrieval System
IRS       Internal Revenue Service
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible




                                            Background

The Internal Revenue Service (IRS) has a policy that states:
        If, after taking all steps in the collection process, it is determined that an account receivable is
        currently not collectible, it should be so reported in order to remove it from active inventory.1

The collection process begins with a series of delinquency notices or bills mailed to a taxpayer
when the taxpayer does not file a required tax return(s) or pay taxes due. When the taxpayer
fails to respond within a specified time period, a
delinquent return or balance due account is
generated. Generally, the IRS attempts to contact             Closing taxpayers’ balance due
the taxpayer by telephone at this point.                   accounts  as currently not collectible
                                                                      is a high-risk action because the
When the IRS determines that a taxpayer’s account                     balances due from the taxpayers
is currently not collectible, IRS personnel stop                           may never be collected.
actively working the case2 and suspend collection
action until the taxpayer’s ability to pay improves. Closing taxpayers’ balance due accounts as
currently not collectible is a high-risk action because the balances due from the taxpayers may
never be collected.

Some taxpayers try to resolve their balance due accounts by working with
assistors at one of the IRS’s walk-in offices, called Taxpayer Assistance Centers3
A Taxpayer Assistance Center assistor will work with the taxpayer and determine whether the
taxpayer can make payments or is unable to pay. If the taxpayer is unable to pay and the
taxpayer’s liability exceeds a certain dollar amount, the assistor is required to obtain and analyze
information on the taxpayer’s assets and financial information. If the assistor determines the
taxpayer has the ability to pay or the taxpayer agrees to make payments, various collection
options are considered, including installment agreements. If the taxpayer has no ability to pay,
the taxpayer account is closed as currently not collectible.4 The decision to place an account in
currently not collectible status requires the approval of a manager.
The number of taxpayers who visit the Taxpayer Assistance Centers who are unable to pay their
balance due almost tripled from Calendar Year 2011 to 2012. IRS management believes that the

1
  Accounts can be declared currently not collectible for various reasons including the IRS’s inability to locate or
contact the taxpayer, death of the taxpayer, bankruptcy, or hardship. A hardship occurs when an individual taxpayer
is unable to meet his or her basic living expenses.
2
  Throughout this report, we refer to taxpayer accounts closed as currently not collectible as a case.
3
  Taxpayer Assistance Centers are the responsibility of the IRS’s Field Assistance Office.
4
  Most cases closed as currently not collectible in the Taxpayer Assistance Centers are hardship cases.
                                                                                                           Page 1
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible



increase is due to the economic downturn. Figure 1 shows the number of taxpayers with tax
accounts closed as currently not collectible in the Taxpayer Assistance Centers in Calendar
Years 2009 through 2012.
                          Figure 1: Currently Not Collectible Closures
                                 in Taxpayer Assistance Centers
                             for Calendar Years 2009 Through 2012

                                                Number of
                   Calendar Year                Taxpayers                      Amount
                         2009                        284                       $4,707,471
                         2010                      1,092                      $15,345,417
                         2011                      3,952                      $71,979,183
                         2012                     11,384                     $159,377,982
                         Total                    16,712                     $251,410,053
               Source: Our analysis of the Taxpayer Information File5 as of June 19, 2012.

Once an individual taxpayer account is closed as currently not collectible, the account is
systemically monitored, and if the taxpayer’s income increases, the account is reactivated. If the
account is reactivated, the taxpayer is sent a notice about taxes still owed on his or her account.
These reviews can result in subsequent enforcement actions to collect the outstanding balances
due or to return the account to a currently not collectible status.
This review was performed at the Wage and Investment Division’s Field Assistance Office in
Atlanta, Georgia; the Taxpayer Assistance Centers in Augusta, Chamblee, Dalton, and
Smyrna, Georgia; the Small Business/Self-Employed Division’s Field Collection function in
Sandy Springs, Georgia; and the Automated Collection Service function in Chamblee, Georgia,
during the period May through July 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our finding and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our finding and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




5
  This database is the major database used within the Integrated Data Retrieval System (IDRS). It contains business
and individual taxpayer information. The IDRS is the IRS computer system capable of retrieving or updating stored
information. It works in conjunction with a taxpayer’s account records.
                                                                                                           Page 2
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible




                                      Results of Review

Controls Over Currently Not Collectible Accounts Do Not Ensure All
Actions Taken Are Appropriate
Controls over balance due accounts closed as currently not collectible in the Field Assistance
Office are insufficient to ensure all actions were appropriate. Tests of currently not collectible
cases closed by Taxpayer Assistance Center assistors showed that the cases were not worked
according to guidelines. Specifically:
            Required financial statements were not completed.
            The closing codes were not applied correctly.
            Federal tax liens were not appropriately placed on taxpayers’ accounts.
However, we could not determine whether the correct decisions were made to close a case as
currently not collectible because the cases did not contain sufficient documentation, such as
financial statements and case history notes. This happened because the assistors did not follow
procedures. Further, some cases are being closed without manager approval. Inappropriately
closing taxpayer accounts as currently not collectible affects tax administration and whether
taxes are collected on balance due accounts.

Procedures were not followed when taxpayer balance due accounts were closed
as currently not collectible
An analysis of a judgmental sample of 17 taxpayer cases6 and a statistically valid sample of
136 taxpayer accounts closed as currently not collectible on the Accounts Management Services
(AMS) System7 identified that procedures were not followed. The total assessed balance for the
17 cases was $288,854, and the total assessed balance for the 136 taxpayer accounts was
approximately $2.5 million.




6
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
The same sample of 17 cases was used for the analysis of the financial statements, closing codes, Federal tax liens,
and management approval.
7
  A computer-based system used to answer and resolve inquiries related to taxpayer accounts. The AMS System
provides a common interface that allows users of multiple IRS systems to view history and comments from other
systems and to access a variety of case processing tools without leaving the AMS System. All employees are
required to use the AMS System to research, document, and resolve all account contacts, adjustments, and referrals.
                                                                                                             Page 3
                            Control Weaknesses Could Allow Taxpayers’
                          Delinquent Accounts to Be Inappropriately Closed
                                    As Currently Not Collectible



IRS guidelines state that employees are required to identify and create the appropriate issue in
the AMS System and input history for all account accesses. The Government Accountability
Office’s Standards for Internal Control in the Federal Government8 state that all transactions
and other significant events need to be clearly documented, and the documentation should be
readily available for examination. All documentation and records should be properly managed
and maintained.
Required financial statements were not always completed
An analysis of currently not collectible cases identified that required financial statements were
not always completed. Financial statements are required for total unpaid balances of $1,500 or
more. Of the 17 cases reviewed, four (24 percent) cases did not include a required financial
statement.
A financial statement is an electronic statement that an assistor is required to complete using the
AMS System. An assistor obtains financial information to determine the taxpayer’s maximum
ability to pay his or her delinquent tax debt based on the taxpayer’s current financial condition.
Obtaining financial information can also result in determining that a taxpayer currently has no
ability to pay and that the taxpayer’s account should be placed in currently not collectible status.
Closing codes were incorrect
Closing codes are systemically generated on the AMS System from information input into the
financial statements. Assistors are also required to input a closing code to the Integrated Data
Retrieval System (IDRS). The closing code equates to an amount of income the taxpayer may
claim on a future tax return without being subject to additional collection action and is based on
the taxpayer’s current income and expenses.
An analysis of the 17 currently not collectible cases showed that closing codes were not all
correctly input into the IDRS.
     4 (24 percent) cases had closing codes higher than warranted based on the taxpayers’
       financial statements.
     13 (76 percent) cases had the correct closing codes.
The amount of the total assessed balance was $108,790 for the four taxpayers’ accounts on
which closing codes were input that were higher than warranted.
An analysis of the 136 currently not collectible cases identified that closing codes were not
correctly input to the IDRS. Of the 136 cases, 41 (30 percent) had incorrect closing codes.



8
 Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government, p. 15 (Nov. 1999).
                                                                                                   Page 4
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible



       13 (10 percent) had closing codes that were lower than warranted based on case
        documentation.
       28 (21 percent) had closing codes that were higher than warranted based on case
        documentation.
The taxpayer account is systemically reviewed annually when a taxpayer files an income tax
return. If a taxpayer reports increased income above the predetermined amount based on the
currently not collectible closing code, the account is reactivated systemically. A lower than
determined closing code could burden the taxpayer when the IRS takes premature collection
action, and a higher than determined closing code could result in lost revenue.
For the 28 cases closed with a higher closing code, the total balance due was more than
$796,000, with an average of $28,446 for each taxpayer account. For Calendar Year 2011,
3,952 taxpayer accounts were closed as currently not collectible. Of those 3,952 taxpayer
accounts, there is a risk that 8149 will not be reactivated. Based on the average amount of the
cases closed as currently not collectible, there is potential lost revenue of $23 million for
Calendar Year 2011; projected over five years, there is a potential of $116 million in lost
revenue. We recognize that not all of this revenue will be collected because an increase in a
taxpayer’s income does not necessarily mean the taxes will be collected.
For the 13 cases closed with a lower closing code, there is a potential that 378 taxpayers10 will be
burdened as a result of taxpayer accounts being erroneously reinstated as collectible in Calendar
Year 2011; projected over five years, 1,889 taxpayers could be burdened. Figure 2 provides the
income and expense amounts related to closing codes.
                Figure 2: Income and Expenses Related to Closing Codes

                  Income                       Closing Code                    Monthly Expenses

                  $20,000                            24                             $0 – $1,388
                  $28,000                            25                          $1,389 – $1,944
                  $36,000                            26                          $1,945 – $2,500
                  $44,000                            27                          $2,501 – $3,055
                  $52,000                            28                          $3,056 – $3,611
                  $60,000                            29                          $3,612 – $4,166
                  $68,000                            30                          $4,167 – $4,722



9
  We multiplied the 3,952 taxpayer accounts by the higher closing code error rate of 20.59 percent to determine the
number of cases that could potentially have an incorrect closing code that is higher than required.
10
   We multiplied the 3,952 taxpayer accounts by the lower closing code error rate of 9.56 percent to determine the
number of cases that could potentially have an incorrect closing code that is lower than required.
                                                                                                            Page 5
                            Control Weaknesses Could Allow Taxpayers’
                          Delinquent Accounts to Be Inappropriately Closed
                                    As Currently Not Collectible



               Income                     Closing Code               Monthly Expenses

               $76,000                         31                     $4,723 – $5,277
               $84,000                         32                      $5,278 or more
  Source: The IRS’s Internal Revenue Manual.

Federal tax liens were not placed on taxpayers’ accounts
An analysis of the 17 currently not collectible cases identified that required Federal tax liens
were not appropriately placed on taxpayer accounts with balances of more than $10,000.
      8 (47 percent) accounts did not require a tax lien.
      9 (53 percent) accounts with a total assessed balance of $253,774 did not have the
       required tax liens placed on the accounts.
When unpaid balances are equal to or exceed $10,000, a Federal tax lien is to be placed on a
currently not collectible taxpayer account. A lien is placed on an account as security for an
outstanding tax liability.

Management approval is not always documented or appropriate
An analysis of the 17 currently not collectible cases showed that cases were closed on the
AMS System but frequently did not have the required managerial approval.
      *********************************1**********************************
       **************1******
      **********************************1**********************************
       *****1******.
To place an account in currently not collectible status requires the approval of a manager.
However, the manager is not required to document the approval in the AMS System. There are
two options for management approval: the assistor routes a Form 4442, Inquiry Referral, to the
manager for approval or the manager directly accesses the AMS System account and inputs a
comment in the history section.
      Managers are required to thoroughly evaluate the currently not collectible taxpayer
       account and research it before making a decision regarding the account’s collectability
       status. Once the manager has made the determination, Form 4442 is routed back to the
       employee approved or disapproved. The Form 4442 and routing history is retained on
       the AMS System for approximately 90 days and then is systemically deleted. Form 4442
       has no place for a manager to sign to indicate approval of the case. Once deleted, there is
       no longer evidence of the manager’s approval.


                                                                                              Page 6
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible



        Managers can access the AMS System and input comments in the history section. These
         comments are permanently retained. Managers are required to use this method for
         mirrored cases11 closed as currently not collectible and taxpayer accounts not approved to
         be closed as currently not collectible. Information on the history section is permanently
         retained.
The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that transactions and other significant events should be authorized and
executed only by persons acting within the scope of their authority. This is the principal means
of assuring that only valid transactions are initiated or entered into. Authorizations should be
clearly communicated to managers and employees.
Systemic controls do not prevent assistors from approving their own case closings and
updating the taxpayer’s account to currently not collectible status on the IDRS
The Taxpayer Assistance Center assistors are required to use the AMS System to determine if a
taxpayer’s delinquent account(s) is uncollectible. The assistor must manually update the
taxpayer’s account in the IDRS. The assistors can accomplish both of these tasks without
managerial approval and without detection. The Treasury Inspector General for Tax
Administration’s Office of Investigations and Office of Audit identified 28 taxpayer accounts for
which assistors did not obtain management approval on currently not collectible closures.
There were 30 taxpayer accounts accessed by Taxpayer Assistance Center assistors with no
associated cases on the AMS System. The tax accounts were updated by inputting the currently
not collectible status directly to the IDRS. No determination could be made whether the
taxpayer accounts were updated by Taxpayer Assistance Center assistors or employees from
other offices or functions. In addition, there were no associated IRS employee numbers on
transactions input to tax accounts. The total assessed balance for these inappropriately closed
accounts was $338,536.
There are no preventive controls
Assistors can close a case on the AMS System without managerial review or approval.
Additionally, assistors use the IDRS command code REQ7712 to input a currently not collectible
status on a taxpayer account and do not need approval to input this command code.
IRS management stated that currently there are 187 Taxpayer Assistance Centers with only one
or two technical employees, making it unrealistic to segregate duties in those locations (for
example, separating the acceptance of payments and inputting transactions into the computer for

11
   These are cases in which one taxpayer on a jointly filed tax return needs to be treated separately from the other
taxpayer and is unable to pay the assessed balance.
12
   This code is used to input a transaction, Notice of Action for Entry, on the Master File/IDRS. The Master File is
the IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                             Page 7
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible



the same taxpayers). The IRS stated these Taxpayer Assistance Centers processed
271,010 payments totaling approximately $432 million from October 1, 2011, through
June 15, 2012. However, the IRS has not conducted a risk analysis to determine if it can
sufficiently minimize the risk associated with this lack of segregation of duties.
The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that management needs to comprehensively identify risks and should consider
all significant interactions between the entity and other parties as well as internal factors at both
the entity wide and activity levels. Risk identification methods may include qualitative and
quantitative ranking activities, management conferences, forecasting and strategic planning, and
consideration of findings from audits and other assessments. Once risks have been identified,
they should be analyzed for their possible effect. Risk analysis generally includes estimating the
risk’s significance, assessing the likelihood of its occurrence, and deciding how to manage the
risk and what actions should be taken.
In the Examination function, tax auditors are prohibited from inputting transactions to taxpayer
accounts and have read-only access to the IDRS. Adjustments to accounts under examination
are conducted by a different function. In addition, some IRS functions use Form 3177, Notice
for Action of Entry on Master File, to maintain separation of duties. This form is completed with
the required currently not collectible information and is sent to the Accounting Operations
branch for entries to be input to the taxpayer account. However, Form 3177 has not been revised
since November 2005 and does not require management approval.
The Collection Field function uses the Integrated Collection System13 to input taxpayer interview
notes, prepare financial statements, and assess the taxpayer’s ability to pay balances due. The
system does not allow the employee to approve his or her own work and the employee has
read-only access to the IDRS.
There are no detective controls
The AMS System does not generate daily or weekly reports showing cases closed as currently
not collectible. No other reports are available listing the cases closed as currently not collectible
in the Taxpayer Assistance Centers. Although an employee may obtain manager approval, there
is no review process to ensure employee entries to the AMS System and the IDRS are accurate
and complete.
Inappropriately closing taxpayer accounts as currently not collectible creates a high risk of not
collecting unpaid taxpayer account balances. A process should be implemented to systemically
notify managers of the accounts that are closed currently not collectible, and managers need to
access the AMS System history section and approve the currently not collectible cases.

13
  An information management system designed to improve revenue collections by providing revenue officers
access to the most current taxpayer information, while in the field, using laptop computers for quicker case
resolution and improved customer service.
                                                                                                          Page 8
                              Control Weaknesses Could Allow Taxpayers’
                            Delinquent Accounts to Be Inappropriately Closed
                                      As Currently Not Collectible



Taxpayer Assistance Center assistors need read-only access to the IDRS, and any adjustments to
accounts should be sent to the Account Resolution branch to be input to the taxpayer’s account.
In addition, a procedure should be implemented whereby the manager is required to review
currently not collectible closures and approve the entries that are sent to the Account Resolution
branch. If Form 3177 is used, the form should be revised requiring management approval.
On June 25, 2012, the Government Accountability Office reported14 that two clerks in a campus
support unit had the ability to make adjustments to a taxpayer’s account through the IDRS while
also maintaining physical possession of hard-copy receipts. IRS procedures did not specifically
prohibit access to the IDRS commands for certain employees who were responsible for
processing payments, and IRS procedures did not require monitoring these particular employees’
system accesses. The Government Accountability Office recommended that the IRS direct the
appropriate IRS officials to update the Internal Revenue Manual to specify steps to be followed
to prevent campus support clerks from making adjustments to taxpayer accounts. The IRS
agreed with the recommendation. Taxpayer Assistance Center assistors process payments and
can adjust accounts by placing the accounts in currently not collectible status.
The Government Accountability Office’s Standards for Internal Control in the Federal
Government state that key duties and responsibilities should be segregated among different
people to reduce the risk of error or fraud. The standards further state that this segregation of
duties should include dividing the responsibilities for authorizing, recording, and reviewing
transactions as well as handling any related assets. No one individual should be in a position to
both cause and conceal an error or irregularity by controlling certain key aspects of a transaction
or event. Internal controls should generally be designed to assure that ongoing monitoring
occurs in the course of normal operations and includes regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing their duties.
IRS guidelines state that front-line managers of IDRS users are responsible for day-to-day
implementation and administration of IDRS security15 in their unit, which includes ensuring the
command code usage of employees with sensitive command codes are reviewed at least monthly.
A lack of sufficient segregation of duties over the Taxpayer Assistance Center activities
increases the risk of unauthorized access to taxpayer information, which can lead to the loss,
theft, or misuse of this information.




14
   Government Accountability Office, GAO-12-683R, Management Report: Improvements Are Needed to Enhance
the Internal Revenue Service’s Internal Controls and Operating Effectiveness (June 2012).
15
   Each employee who uses the IDRS is assigned a command code profile that determines the types of transactions
he or she can process.
                                                                                                        Page 9
                          Control Weaknesses Could Allow Taxpayers’
                        Delinquent Accounts to Be Inappropriately Closed
                                  As Currently Not Collectible



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure assistors thoroughly document cases and follow established
procedures when closing taxpayer accounts as currently not collectible. This should include
procedures for completing financial statements, documenting correct closing codes on taxpayer
accounts, and ensuring required liens are filed.
       Management’s Response: IRS management agreed with the recommendation and
       will ensure assistors are reminded of their responsibility to adequately document cases
       and follow Internal Revenue Manual procedures when closing taxpayer accounts as
       currently not collectible. E-mail communications will be distributed to the field as a
       reminder of the currently not collectible procedures for completing financial statements,
       closing codes, and the filing of required liens. In addition, IRS Fiscal Year 2013
       Continuing Professional Education includes a currently not collectible refresher lesson
       for all Individual Tax Advisory Specialist employees.
Recommendation 2: Clarify internal guidelines requiring that management document
approval of balance due cases in the AMS System history section. This should ensure that
appropriate manager approvals are completed and retained on the AMS System.
       Management’s Response: IRS management agreed with the recommendation and
       will clarify guidelines requiring managerial documentation of currently not collectible
       cases on the AMS System. E-mail reminders will be distributed to the IRS field
       regarding these requirements.
Recommendation 3: Conduct a risk analysis to evaluate the risk of not segregating duties in
the Taxpayer Assistance Centers. The risk analysis should include the costs associated with
separating duties when processing payments, taking case actions (including closing cases as
currently not collectible), and making account adjustments. It should also include any potential
effect on taxpayer burden and the risk associated with lost revenue. As needed, implement
controls and revise IRS guidelines to ensure appropriate separation of duties.
       Management’s Response: IRS management agreed with the recommendation and
       will complete an analysis to assess the risks associated with the non-segregation of duties
       in Taxpayer Assistance Centers where staffing levels do not permit proper segregation.
       The IRS will use the results of the assessment to determine appropriate steps to mitigate
       risks that exceed acceptable levels.
Recommendation 4: Implement security reviews and reports that can be used to evaluate the
assistors’ use of IDRS command code REQ77.
       Management’s Response: IRS management agreed with the intent of this
       recommendation and believes it can be met through reviews of monthly usage reports

                                                                                          Page 10
                  Control Weaknesses Could Allow Taxpayers’
                Delinquent Accounts to Be Inappropriately Closed
                          As Currently Not Collectible



provided by the IDRS Online Reports Services, which includes all REQ77 command
code activity. The IRS will reemphasize to their managers the importance of following
the security review guidelines provided by IRM 10.8.34, IDRS Security Controls.




                                                                               Page 11
                               Control Weaknesses Could Allow Taxpayers’
                             Delinquent Accounts to Be Inappropriately Closed
                                       As Currently Not Collectible



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our objective was to determine whether controls over balance due accounts closed as currently
not collectible in the Field Assistance Office are sufficient to ensure all actions are appropriate.
To accomplish our objective, we:
I.      Identified the procedures and processes the Field Assistance Office had in place to work
        and close currently not collectible cases and determined whether they were sufficient to
        protect revenue and reduce the risk of fraud.
II.     Assessed the Field Assistance Office’s processes for working and approving currently not
        collectible cases to ensure all case actions were appropriate.
        A. Selected and reviewed a judgmental sample1 of closed currently not collectible cases
           to determine if all required actions were taken. To identify the currently not
           collectible cases, we queried the Taxpayer Information File2 for the period
           January 1, 2009, through April 30, 2012. We matched the results to the AMS
           System3 user table and then matched those results to the list of Taxpayer Assistance
           Center assistors to identify the transactions entered into the AMS System and the
           IDRS. From a population of 16,712 taxpayer accounts, we selected 17 cases for
           review and analysis.
        B. Selected a statistically valid sample4 of 136 taxpayer accounts from a population of
           3,952 taxpayer accounts that were closed as currently not collectible in the Taxpayer
           Assistance Centers in Calendar Year 2011. We used a confidence level of 90 percent,
           an error rate of 15 percent, and a precision level of ±5 percent to determine our
           sample size. We oversampled by three taxpayer accounts. We used the sample to
           determine the number of taxpayer accounts that showed an incorrect closing code in
           the IDRS.


1
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
We used a judgmental sample because we did not plan to project our results.
2
  This database is the major database used within the IDRS. It contains business and individual taxpayer
information. The IDRS is the IRS computer system capable of retrieving or updating stored information. It works
in conjunction with a taxpayer’s account records
3
  A computer-based system used to answer and resolve inquiries related to taxpayer accounts. The AMS System
provides a common interface that allows users of multiple IRS systems to view history and comments from other
systems and to access a variety of case processing tools without leaving the AMS System. All employees are
required to use the AMS System to research, document, and resolve all account contacts, adjustments, and referrals.
4
  We used a statistically valid sample because we planned to project our results for this test.
                                                                                                          Page 12
                          Control Weaknesses Could Allow Taxpayers’
                        Delinquent Accounts to Be Inappropriately Closed
                                  As Currently Not Collectible



III.   Determined whether the Field Assistance Office had sufficient reports to monitor and
       track currently not collectible cases to ensure guidelines were followed.
IV.    Obtained data from the Taxpayer Information File and the AMS System to determine the
       number of cases closed by Taxpayer Assistance Center assistors and the amount of
       assessed balances.
V.     Ensured all data used during the audit was valid, complete, and accurate. We assessed
       the reliability of data extracted from the Taxpayer Information File and the AMS System
       by (1) performing electronic testing of required data elements, (2) reviewing existing
       information about the data and the system that produced them, (3) interviewing agency
       officials knowledgeable about the data, and (4) selecting a judgmental sample of ten
       accounts from each system and verifying that the data elements extracted matched the
       taxpayer account information on the IDRS and the cases on the AMS System. We
       determined that the data were sufficiently reliable for purposes of this report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the internal
controls relevant to our audit objective include the IRS’s internal guidelines used by the
Taxpayer Assistance Center assistors to close currently not collectible cases and the management
information systems used to control currently not collectible cases. We evaluated controls by
reviewing cases, interviewing management, and reviewing policies and procedures. We selected
a judgmental sample of 17 cases and a statistically valid sample of 136 cases.




                                                                                        Page 13
                         Control Weaknesses Could Allow Taxpayers’
                       Delinquent Accounts to Be Inappropriately Closed
                                 As Currently Not Collectible



                                                                              Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Lena Dietles, Audit Manager
Jerry Douglas, Lead Auditor
Tanya Adams, Senior Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor
Lance J. Welling, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 14
                        Control Weaknesses Could Allow Taxpayers’
                      Delinquent Accounts to Be Inappropriately Closed
                                As Currently Not Collectible



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships and Education SE:W:CAR
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Field Assistance SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 15
                              Control Weaknesses Could Allow Taxpayers’
                            Delinquent Accounts to Be Inappropriately Closed
                                      As Currently Not Collectible



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       Increased Revenue – Potential; $115,725,586 for 814 taxpayer accounts (see page 3).1

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 136 taxpayer accounts,2 28 accounts were identified with
incorrect closing codes that were higher than required. The total balance due on these accounts
was approximately $796,492, with an average of $28,446 for each taxpayer account.
For Calendar Year 2011, 3,952 taxpayer accounts were closed as currently not collectible in the
Taxpayer Assistance Centers. Using the error rate of 20.59 percent (28 accounts divided by
136 total accounts sampled), we determined that there is a potential that 814 accounts
(20.59 percent of 3,952 accounts) are at risk of not being reactivated. Based on the average
amount of the balance due, we determined $23,145,117 may be at risk of not being collected;
projected over five years, $115,725,586 may be at risk. The dollar value could range from
$56 million to $176 million. We recognize that not all of this revenue will be collected because
increases in taxpayers’ income do not necessarily mean the taxes owed will be collected.

Type and Value of Outcome Measure:
       Taxpayer Burden – Potential; 1,889 taxpayers affected (see page 3).

Methodology Used to Measure the Reported Benefit:
From our sample of 136 taxpayer accounts, 13 accounts were identified with a lower closing
code than required. Using the error rate of 9.56 percent (13 accounts divided by 136 total
accounts sampled), we determined that there is a potential 378 taxpayers (9.56 percent of
3,952 accounts) may be burdened; projected over five years, 1,889 taxpayers may be burdened.
The estimated number of taxpayers burdened could range from 926 to 2,852.

1
 Totals may not calculate due to rounding.
2
 We selected a statistically valid sample of 136 accounts from a population of 3,952 taxpayer accounts. We used a
confidence interval of 90 percent, an error rate of 15 percent, and a precision level of ±5 percent.
                                                                                                         Page 16
                                      Control Weaknesses Could Allow Taxpayers’
                                    Delinquent Accounts to Be Inappropriately Closed
                                              As Currently Not Collectible



                                                                                                 Appendix V

                     Controls and Tolerances Concerning
                      Currently Not Collectible Accounts

                                                                       Manager
Closing                                                                Approval
 Code          Definition                 Dollar Criteria              Required             Exception Cases
 Accounts Management (to include the Field Assistance Office) and Compliance assistors are limited to closing IMF and
 out-of-business BMF sole proprietor accounts as unable to pay up to $100,000 for all outstanding balances including
 accounts previously reported as currently not collectible. IRM 5.19.1.7 (11/03/2010).

                                        IMF<$25,000 and BMF if                      Form 433–A, Collection Information
                                        the aggregate assessed                      Statement for Wage Earners and
          Unable to Locate.
                                        balance is <$10,000 if         More Than    Self-Employed Individuals, is
  03      Inability to locate the
                                        trust funds are involved,       $5,000      required unless it is an exception
          taxpayer or assets.
                                        <$25,000 if trust funds are                 case.
                                        not involved.
                                                                                    MANAGERIAL APPROVAL
          Decedent. Death of an         No dollar criteria.                         REQUIRED FOR ALL
          individual with no                                                        EXCEPTION CASES.
          collection potential from                                    More Than
  08
          the decedent estate or                                        $5,000      Exception cases have an
          no collection potential for                                               aggregate assessed balance of
          estate taxes.                                                             less than $10,000, including prior
                                                                                    currently not collectible amounts,
                                        Accounts may be closed                      and one or more of the following
                                        as currently not collectible                conditions exist:
                                        where the aggregate
  09      Below Tolerance.              unpaid balance, including         No         Taxpayer has a terminal illness
                                        accruals, is less than                        or excessive medical bills.
                                        $100.00 for IMF and BMF
                                                                                     Taxpayer is incarcerated.
                                        accounts.
                                                                                     Taxpayer’s only source of
          Inability to Contact.         IMF <$25,000 and BMF if                       income is Social Security,
          Inability to contact a        the aggregate assessed                        welfare, or unemployment.
          taxpayer although the         balance is <$10,000 if         More Than
  12
          address is known and          trust funds are involved,       $5,000       Taxpayer is unemployed with no
          there is no means to          <$25,000 if trust funds are                   source of income (excluding the
          enforce collection.           not involved.                                 seasonal unemployed which fall
                                                                                      under normal currently not
          Hardship. Collection of                                                     collectible consideration and
          the liability would create    <$100,000 where the                           processing).
          a hardship for taxpayers      aggregate assessed             More Than
 24-32                                                                               Lien determinations must be
          by leaving them unable        balance is less than            $1,500
          to meet necessary living      $100,000.                                    conducted for accounts over
          expenses.                                                                  $10,000.

Source: IRS Internal Revenue Manual. BMF = Business Master File. IMF = Individual Master File.

                                                                                                           Page 17
          Control Weaknesses Could Allow Taxpayers’
        Delinquent Accounts to Be Inappropriately Closed
                  As Currently Not Collectible



                                                  Appendix VI

Management’s Response to the Draft Report




                                                           Page 18
  Control Weaknesses Could Allow Taxpayers’
Delinquent Accounts to Be Inappropriately Closed
          As Currently Not Collectible




                                                   Page 19
  Control Weaknesses Could Allow Taxpayers’
Delinquent Accounts to Be Inappropriately Closed
          As Currently Not Collectible




                                                   Page 20
  Control Weaknesses Could Allow Taxpayers’
Delinquent Accounts to Be Inappropriately Closed
          As Currently Not Collectible




                                                   Page 21
  Control Weaknesses Could Allow Taxpayers’
Delinquent Accounts to Be Inappropriately Closed
          As Currently Not Collectible




                                                   Page 22
